Nos. 20-306 & 20-5649
IN THE

Supreme Court of the United States
ROBERT OLAN AND THEODORE HUBER,
Petitioners,
v.
UNITED STATES,
Respondent.
DAVID BLASZCZAK,
Petitioner,
v.
UNITED STATES,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF SERVICE
I, Peter G. Neiman, a member of the bar of this Court, hereby certify that, on
this 9th day of October, 2020, all parties required to be served have been served copies
of the Brief for National Association of Criminal Defense Lawyers as Amicus Curiae in
Support of Petitioners in this matter by overnight courier to the addresses on the
attached service list.

/s/ Peter G. Neiman
PETER G. NEIMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
peter.neiman@wilmerhale.com

SERVICE LIST

Counsel for Petitioners
Robert Olan & Theodore Huber

Counsel for Respondent
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

DONALD B. VERRILLI, JR.
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1101
donald.verrilli@mto.com
Counsel for Petitioner David Blaszczak
COLLEEN P. CASSIDY
FEDERAL DEFENDERS OF NY, INC.
52 Duane Street, 10th Floor
New York, NY 10007
(646) 588-8318
collen_cassidy@fd.org

2

